              EMPLOYEE USES GSA FUEL CREDIT CARD
                    FOR PERSONAL BENEFIT
                                SEPTEMBER 7, 2012
                                 CASE # PA-12-0207

OIG investigated suspicious transactions involving a GSA credit card assigned to an
Amtrak vehicle. A review of the transaction records indicated that the card was being
used in multiple simultaneous purchases involving unusual random odometer readings.
Surveillance identified an Amtrak employee using the gas card to fuel personally-owned
vehicles. The suspicious fuel purchases totaled $4,086. The employee resigned prior to a
scheduled company administrative hearing.
